APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_________
No. 17-20599
_________
APACHE DEEPWATER, L.L.C.,
Plaintiff-Appellee,
v.
W&T OFFSHORE, INCORPORATED,
Defendant-Appellant.
_________
Filed: July 16, 2019
_________
Appeal from the United States District Court
for the Southern District of Texas,
David Hittner, U.S. District Judge
_________
Attorneys and Law Firms
Geoffrey L. Harrison, Esq., William Randolph
Merrill, Esq., Ashley McMillian, Abigail Claire
Noebels, Susman Godfrey, L.L.P., Houston, TX, for
Plaintiff - Appellee.
Stephen Henry Kupperman, Esq., Erica A. Therio,
Barrasso, Usdin, Kupperman, Freeman & Sarver,
L.L.C., New Orleans, LA, for Defendant - Appellant.
_________

2a
Before HIGGINBOTHAM, GRAVES, and WILLETT,
Circuit Judges.
_________
Opinion
PATRICK E. HIGGINBOTHAM, Circuit Judge:
This dispute arises from a successful plugging and
abandonment operation of three offshore oil and gas
wells in the Mississippi Canyon area of the Gulf of
Mexico. Apache Deepwater, LLC performed the
operation and seeks payment from its non-operator
partner, W&T Offshore, Inc. A jury awarded $43.2
million to Apache for W&T’s breach of the Joint
Operating Agreement. W&T challenges the district
court’s application of the Louisiana Civil Code and
interpretation of the contract. Alternatively, W&T
contends that it is entitled to an offset in damages
because of Apache’s bad faith. Finding no error, we
affirm.
I.
In May 1999, Apache and W&T’s predecessors
entered into a Joint Operating Agreement (“JOA”)
that governed the operation of three offshore
deepwater oil and gas wells (the “Wells”) in the
Mississippi Canyon area of the Gulf of Mexico. This
dispute arises from operator Apache’s plugging and
abandonment (“P&A”) of the Wells.
In 2012, Apache attempted to P&A the Wells with
an intervention vessel called Uncle John with the
consent of W&T, but that operation was
unsuccessful. Following that failure, Apache
contracted to use a different intervention vessel, the

3a
Helix-534 (“Helix”). An internal figure by Apache
estimated that the cost to P&A the Wells with the
Helix was approximately $56,350,000. In June 2014,
W&T contacted Apache to set up a status conference
in July discussing the P&A operation, confirming
that W&T knew “that the Helix 534 is contracted for
the project.” At that meeting, W&T learned that
Apache proposed using two drilling rigs for the
project instead of the Helix, the Ocean Onyx (“Onyx”)
and Ensco-8505 (“Ensco”).
W&T and Apache offered to the jury competing
explanations for the switch from the Helix to the
Onyx and Ensco drilling rigs. By W&T’s telling,
Apache’s decision to use the Onyx and Ensco was a
simple matter of cost: W&T contends that Apache
entered into a contract for the two drilling rigs for
the purpose of drilling new deepwater wells, but
abandoned that project in 2014 and was left with
exorbitant stacking costs for the idle rigs
(approximately $1,000,000 per day). W&T asserts
that Apache’s decision to use the rigs instead of the
Helix was an attempt to recoup on the costs of
contracting for the unused rigs because Apache had
been unsuccessful in unloading the rigs onto another
operator. Prior to the July meeting, Apache prepared
estimates for the use of the rigs which totaled
between $81 and $104 million. W&T points to an
internal presentation in which Apache was weighing
the costs of using the Helix against the rigs and
determining that with the stacking costs Apache was
paying for the idle rigs, the use of the rigs would be
cheaper because the cost would be split with W&T.
Apache cancelled the Helix contract. W&T claims
that although Apache purported to rely on written

4a
evaluations explaining the technical reasons the rigs
were necessary (including that the Helix no longer
complied with government regulations), Apache
refused to provide those analyses to W&T.
Apache rejects W&T’s economic explanation and
argues that the Helix was not a safe option after the
Deepwater Horizon spill and the government
regulators would not have approved the Helix for the
P&A operations. Apache put on evidence that it had
discussed the risks of using the Helix with W&T, and
demonstrated that technical difficulties posed by the
Wells would make the “open water” operations of the
Helix environmentally risky, that the Wells were
“high risk,” and that the drilling rigs were able to
conduct the P&A operations with safeguards
mitigating the risk of oil spills. Apache also claimed
that the federal Bureau of Safety and Environmental
Enforcement (“BSEE”) advised Apache that it was no
longer approving the type of open-water operations
that Helix would need to perform to complete the
P&A task. In Apache’s version, W&T began “actively
resisting” the P&A plan using the rigs because the
Helix operation would be far cheaper for W&T and
W&T was disregarding the environmental risk. 1
Apache argued to the jury that W&T ignored the fact
that Helix would have had operational issues that
would have increased the costs of the operation past
1

Apache points to an internal e-mail from W&T’s vice
president Cliff Williams in which he wrote: “I’d like to
determine options should we not agree with operators plan and
believe we can perform well abandonments cheaper. Can we
non-consent and take over abandonment operations with
Apache obligated to pay their share of estimated abandonment
costs?”

5a
the initial estimates and that the use of the rigs was
“reasonably necessary.” Amid their dispute over the
appropriate intervention vessel, Apache sought
W&T’s approval for use of the rigs through an
Authorizations for Expenditure (“AFE”), but W&T
decided not to approve the use of the rigs, 2 and
rejected two other requests for AFEs. Apache decided
to use the rigs for the P&A and the work was
successfully completed in February 2015 for a total
cost of $139,900,000. Apache billed W&T for its
contractual 49% share, or $68,570,000. W&T decided
to pay $24,860,640, which represented 49% of the
estimate for use of the Helix, contending that
“Apache’s insistence on using a drilling rig
unnecessarily and unreasonably increased the costs
of this work,” and determining that it was not
obligated to pay the full billed amount because it had
not approved the AFEs.
Apache sued for breach of contract in Texas state
court in December 2014 and the case was removed by
W&T in January 2015. Prior to trial, W&T moved for
summary judgment on Apache’s breach of contract
claim, arguing that the JOA was unambiguous in
requiring the operator (Apache) to obtain an

2

In its response, W&T stated: “We believe Apache, as a
prudent operator, has an obligation to conduct the operation in
a cost effective and safe manner in compliance with all
governmental regulations. We do not understand why Apache
continues to advocate the use of the Ensco 8505 rig when it is
clear that an intervention vessel could safely perform the
abandonment work at a much lower cost....We do not believe
W&T should be obligated to pay the additional charges arising
from the use of the Ensco rig when other less expensive options
are available.”

6a
approved AFE before expending over $200,000. The
parties’ argument turned on the reading of two
provisions in the JOA: § 6.2 governing authorizations
for expenditures and § 18.4 governing abandonment
operations required by the government:
6.2. Authorization for Expenditure: The
Operator shall not make any single
expenditure or undertake any activity or
operation costing Two Hundred Thousand
Dollars ($200,000) or more, unless an AFE has
either (1) been included in a proposal for an
activity or operation and is approved by the
Participating Parties through their Election to
participate in the activity or operation, or (2)
received the approval of the Parties as a
General Matter. When executed by a party, an
AFE grants the Operator the authority to
commit or expend funds on the activity or
operation in accordance with this Agreement
for the account of the Participating Parties....
18.4.
Abandonment
Operations
Requirement
by
Governmental
Authority: The Operator shall conduct the
abandonment and removal of any well,
Production System or Facilities required by a
governmental authority, and the Costs, risks
and net proceeds will be shared by the
Participating Parties in such well, Production
System or Facilities according to their
Participating Interest Share.
The district court denied W&T’s motion for
summary judgment and determined that the
interaction of the provisions in the JOA was

7a
ambiguous, creating an issue of fact as to the
“parties’ intent on the applicability of § 6.2 to a
government-mandated plugging and abandonment
operation governed by § 18.4.” The case proceeded to
trial and the jury made five findings:
1) Did W&T fail to comply with the Contract
by failing to pay its proportionate share of the
costs to plug and abandon the MC 674 wells?
Yes.
2) What sum of money, if any, would
compensate Apache for W&T’s failure to pay
its proportionate share of costs to plug and
abandon the MC 674 wells? $43,214,515.83.
3) Was Apache required to obtain W&T’s
approval under Section 6.2 of the Contract
before Apache plugged and abandoned the MC
674 wells as required under Section 18.4 of the
Contract? No.
4) Did Apache act in bad faith, thereby
causing W&T to not comply with the contract?
Yes.
5) By what amount, if any, should the amount
you found in response to Jury Question No. 2
be offset? $17,000,000.
Following trial, the court entered its order and final
judgment, determining that the jury’s “bad faith”
finding in Question 4 did not preclude Apache’s
recovery for breach of contract under Louisiana law
and holding that W&T was not entitled to an offset
under Louisiana law. The district court also denied
W&T’s motion for a new trial or remittitur and

8a
renewed motion for judgment as a matter of law.
This appeal followed.
II.
This court reviews the denial of a Rule 50(b)
renewed motion for judgment as a matter of law de
novo, “but our standard of review with respect to a
jury verdict is especially deferential.”3 A party is only
entitled to judgment as a matter of law on an issue
where no reasonable jury would have had a legally
sufficient evidentiary basis to find otherwise. 4 In
evaluating the evidence, this court “credit[s] the nonmoving party’s evidence and disregard[s] all evidence
favorable to the moving party that the jury is not
required to believe.”5 This court also has jurisdiction
“to hear an appeal of the district court’s legal
conclusions in denying summary judgment, but only
if it is sufficiently preserved in a Rule 50 motion.”6
“A district court’s resolution of a motion for new
trial is reviewed for abuse of discretion, and ‘[t]he
district court abuses its discretion by denying a new
trial only when there is an “absolute absence of

3

Olibas v. Barclay, 838 F.3d 442, 448 (5th Cir. 2016) (quoting
Evans v. Ford Motor Co., 484 F.3d 329, 334 (5th Cir. 2007))
(internal quotation marks omitted).
4

FED. R. CIV. P. 50(a)(1).

5

Janvey v. Romero, 817 F.3d 184, 187 (5th Cir. 2016) (quoting
Abraham v. Alpha Chi Omega, 708 F.3d 614, 620 (5th Cir.
2013)) (internal quotation marks omitted).
6

Feld Motor Sports, Inc. v. Traxxas, L.P., 861 F.3d 591, 596
(5th Cir. 2017).

9a
evidence to support the jury’s verdict.” ’ ”7 “A motion
for a new trial or to amend a judgment cannot be
used to raise arguments which could, and should,
have been made before the judgment issued.”8 “To
the extent that a Rule 59(e) ruling was a
reconsideration of a question of law,... the standard
of review is de novo.”9
III.
W&T contends that the plain language of Louisiana
Civil Code Article 2003 dictates that the jury’s bad
faith finding bars Apache’s recovery for breach of
contract. Article 2003 states that
An obligee may not recover damages when his
own bad faith has caused the obligor’s failure
to perform or when, at the time of the contract,
he has concealed from the obligor facts that he
knew or should have known would cause a
failure.

7

McCaig v. Wells Fargo Bank (Tex.), N.A., 788 F.3d 463, 472
(5th Cir. 2015) (quoting Wellogix, Inc. v. Accenture, L.L.P., 716
F.3d 867, 881 (5th Cir. 2013)).
8

Garriott v. NCsoft Corp., 661 F.3d 243, 248 (5th Cir. 2011)
(citation omitted) (internal quotation marks omitted).
9

Hoffman v. L&M Arts, 838 F.3d 568, 581 (5th Cir. 2016)
(internal quotation marks, citations, and alterations omitted).
The parties dispute whether the district court’s denial of W&T’s
Rule 59 motion involved a pure question of law, with W&T
arguing that it did and Apache suggesting that W&T’s motion
merely criticized the evidence presented at trial. The Rule 59
motion and district court’s ruling is discussed below in Section
III.

10a
If the obligee’s negligence contributes to the
obligor’s failure to perform, the damages are
reduced in proportion to that negligence.10
In answering the fourth question on the verdict
form, the jury found that “Apache act[ed] in bad faith
thereby causing W&T to not comply with the
contract.”
The district court denied W&T’s motion for
judgment as a matter of law, concluding that it was
bound by the Louisiana Supreme Court’s decision in
Lamar Contractors, Inc. v. Kacco, Inc.11 The district
court determined that, under Lamar, Article 2003’s
bad faith damages bar is only implicated where the
obligor has established that the obligee failed to
perform a contractual obligation that caused the
obligor’s failure to perform. In other words, to avoid
liability pursuant to Article 2003’s bad faith bar,
W&T would have to show that Apache failed in its
performance of the contract and that failure caused
W&T’s breach. Because the jury did not find that
Apache had breached any obligation under the
contract, 12 the district court reasoned that it was
required to set aside the jury’s finding on Question
10

La. Civ. Code art. 2003.

11

189 So. 3d 394 (La. 2016).

12

The district court noted that the jury considered and
rejected that Apache had breached. For example, had the jury
answered Question 3 in the affirmative, that would have
amounted to a finding that Apache had breached an obligation
under the contract. Question 3 asked whether Apache was
required to obtain W&T’s approval under § 6.2 before
completing the P&A as required by § 18.4, which the jury
answered in the negative.

11a
4—that Apache’s bad faith caused W&T’s failure to
perform—meaning Apache was not barred from
recovery under Article 2003.
W&T disputes the district court’s reading of and
reliance on Lamar, arguing that (1) Lamar is not
binding on this court because it is not jurisprudence
constante and this court must instead follow the
plain language of Article 2003, which contains no
language limiting Article 2003’s application to
situations where the obligee has breached; (2)
Lamar’s holding is limited to Article 2003’s
negligence clause; and (3) application of Lamar is
contrary to public policy.
In diversity cases where this court must apply
Louisiana substantive law, 13 “we look to the final
decisions of the Louisiana Supreme Court.”14 In the
absence of a final decision by the state’s supreme
court, we make an Erie guess, which requires us to
“employ Louisiana’s civilian methodology, whereby
we first examine primary sources of law: the
constitution, codes, and statutes.” 15 Even caselaw
rising to the level of jurisprudence constante is
“secondary law in Louisiana”16 and, accordingly, we
are not strictly bound by the decisions of Louisiana’s
13

Erie R.R. Co. v. Tompkins, 304 U.S. 64, 78, 58 S.Ct. 817, 82
L.Ed. 1188 (1938).
14

In re Katrina Canal Breaches Litig., 495 F.3d 191, 206 (5th
Cir. 2007).
15

Id. at 206 (quoting Am. Int’l Specialty Lines Ins. Co. v.
Canal Indem. Co., 352 F.3d 254, 260 (5th Cir. 2003)).
16

Prytania Park Hotel, Ltd. v. Gen. Star Indem. Co., 179 F.3d
169 (5th Cir. 1999).

12a
intermediate appellate courts.17 So, it is only when
the Louisiana Supreme Court has not made a
determinative decision that this court must make an
Erie
guess,
employing
Louisiana’s
civilian
methodology.18
The parties dispute whether Lamar speaks
definitively on the issue of whether Article 2003 bars
recovery of damages only when the obligee has been
found in breach. In Lamar, the Louisiana Supreme
Court considered a trial court’s decision to reduce
breach of contract damages awarded to a general
contractor, Lamar, after finding that Lamar had
contributed to the subcontractor’s failure to
perform.19 The obligation imposed by Article 2003 is
“correlative to the general duty imposed by [Article]
1983, which requires ‘contracts must be performed in
good faith.’ ”20 However, the court warned that the
duty of good faith is not to be considered in isolation,
17

In re Katrina, 495 F.3d at 206 (“Thus, although we will not
disregard the decisions of Louisiana’s intermediate courts
unless we are convinced that the Louisiana Supreme Court
would decide otherwise, we are not strictly bound by them.”)
(citing Am. Int’l Specialty Lines, 352 F.3d at 261).
18

Boyett v. Redland Ins. Co., 741 F.3d 604, 607 (5th Cir.
2014); see also Moore v. State Farm Fire & Cas. Co., 556 F.3d
264, 269–70 (5th Cir. 2009) (“To determine Louisiana law, we
look to the final decisions of the Louisiana Supreme Court. In
the absence of a final decision by the Louisiana Supreme Court,
we must make an Erie guess . . . . When faced with unsettled
questions of Louisiana law we adhere to Louisiana’s civilian
decision-making process.”).
19
20

Lamar, 189 So. 3d at 395–97.

Id. (citing La. Civ. Code art. 1983) (internal alteration
omitted).

13a
and that it is circumscribed by the obligations
imposed by the contract. 21 The court noted that
“[a]lthough we have not had occasion to consider
[Article] 2003 since its enactment in 1985,
jurisprudence interpreting the predecessor article ...
emphasized that the obligor must establish that the
obligee breached the contract, thereby making it
more difficult for the obligor to perform its
obligation.” 22 It concluded: “[A]n obligor cannot
establish an obligee has contributed to the obligor’s
failure to perform unless the obligor can prove the
obligee itself failed to perform duties owed under the
contract. Stated in other words, Kacco must
demonstrate that Lamar failed to perform its
obligations under the contract, which in turn
contributed to Kacco’s breach of the contract.” 23 The
question of the obligee’s bad faith does not become
relevant until there is a determination that the
obligee failed to perform a contractual obligation that
in turn caused the obligor’s failure to perform.24 For
Article 2003 to apply as a damages bar, there must
be an antecedent determination of breach.

21

Id. at 398.

22

Id. (referring to its decisions in Board of Levee Com’rs of
Orleans Levee Dist. v. Hulse, 167 La. 896, 120 So. 589, 590
(1929) and Favrot v. Favrot, 68 So. 3d 1099, 1109 (La. Ct. App.
2011)).
23
24

Id.

Id. at 399 (summarizing the intermediate appellate court’s
conclusion in Favrot that “the question of a party’s good or bad
faith does not become relevant until there has been a
determination that the party failed to perform an obligation
under the contract”).

14a
While W&T urges that the Louisiana Supreme
Court’s reading was limited to the second sentence of
Article 2003—the negligence prong—the Lamar
court drew no such limitation. 25 The reasoning of
Lamar did not depend on the relationship between
bad faith and negligence. W&T offers no principled
reason why the Louisiana Supreme Court would
have chosen not to recognize a requirement of breach
had the obligee in that case acted in bad faith, rather
than negligently. Indeed, we find no distinction in
Lamar. Because Lamar is controlling here, the
district court correctly concluded that the good-faith
inquiry in Article 2003 is limited to situations where
the obligee has breached.26 The jury did not find that
Apache breached so Article 2003 does not bar
Apache’s entitlement to damages as a matter of law.
IV.
W&T also contends that the case never should have
gone before a jury because W&T did not breach the
contract as a matter of law. Section 6.2 of the JOA
provides that the operator “shall not make any single
expenditure or undertake any activity or operation
costing Two Hundred Thousand Dollars ($200,000 or
25
26

Id.

W&T suggests as a last resort that this court may certify
the question to the Louisiana Supreme Court. Because we
conclude that the Louisiana Supreme Court resolved this issue
in Lamar, certification is unnecessary here. Cf. Janvey v. Golf
Channel, Inc., 792 F.3d 539, 547 (5th Cir. 2015) (“Given ... that
this is a question of state law that no on-point precedent from
the Supreme Court of Texas has resolved, that the Supreme
Court of Texas is the final arbiter of Texas’s law ... we believe it
is best to certify the question at issue.”).

15a
more), unless an AFE [is approved].” W&T reads
that provision in conjunction with Exhibit C,
governing
accounting,
which
provides
that
“[a]cceptable reasons for non-payment or short
payment ... are as follows: ... when an AFE is not
approved.” Together, W&T argues, those provisions
unambiguously resolve the issue of whether W&T
breached. Because W&T as the non-operator decided
not to approve any AFE, it contends that it was
entitled to short the payment (and pay its share of
the Helix P&A estimate) without being found in
breach of the JOA. W&T emphasizes that Section 6.2
does not contain an explicit exception for
government-mandated
operations
undertaken
pursuant to Section 18.4 and suggests that AFE
approval was required even for operations performed
under that Section. W&T points out that the parties
understood how to make an exception to Section 6.2
and did so in a separate instance, exempting the
operator from obtaining AFE approval in the event of
a safety-threatening emergency.27
Apache disputes W&T’s reading of the contract,
arguing that under Section 18.4, which covers
government-mandated P&A operations, Apache was
required to undertake its P&A of the Wells as the
operator and was authorized to do so without
obtaining an AFE from W&T pursuant to Section
6.2. Section 18.4 provides that
27

“Notwithstanding the foregoing, in the event of an
emergency which poses a threat to life, safety, property, or the
environment, the Operator is empowered to immediately make
such expenditures for the Joint Account as, in its opinion as a
reasonable and prudent Operator, are necessary to deal with
the emergency.”

16a
The Operator shall conduct the abandonment
and removal of any well, Production System or
Facilities required by a governmental
authority, and the Costs, risks and net
proceeds will be shared by the Participating
Parties in such well, Production System or
Facilities according to their Participating
Interest Share.
Apache asserts that this provision contemplates
cost-sharing between the parties and does not
incorporate Section 6.2’s AFE process. Apache
stresses that requiring a Section 6.2 AFE for a
government-mandated P&A operation would lead to
an absurd result because the non-operator could
essentially hold-up an operator from completing a
P&A required by federal law to avoid sharing the
costs.
The district court denied W&T’s motion for
summary judgment, concluding that the interplay
between Section 6.2 and Section 18.4 was
ambiguous, leaving a material question of fact as to
the parties’ intent. In answering Question Three, the
jury found that Apache was not required to obtain
W&T’s approval through an AFE before conducting
the P&A as required by Section 18.4.28

28

“Was Apache required to obtain W&T’s approval under
Section 6.2 of the Contract before Apache plugged and
abandoned the MC-674 wells as required under Section 18.4 of
the Contract?”

17a
Whether contract language is ambiguous under
Louisiana law is a question of law.29 Under Louisiana
law, “[w]hen the words of a contract are clear and
explicit and lead to no absurd consequences, no
further interpretation may be made in search of the
parties’ intent.”30 “[I]f a court finds the contract to be
unambiguous, it may construe the intent from the
face of the document—without considering extrinsic
evidence—and enter judgment as a matter of law.”31
If the court determines that there is an ambiguity,
the question of intent is an issue of fact.32 “Louisiana
courts will not interpret a contract in a way that
leads to unreasonable consequences or inequitable or
absurd results even when the words used in the
contract are fairly explicit.”33
Applying Section 6.2’s expenditure provision to a
government-mandated P&A undertaken pursuant to
Section 18.4 would lead to an absurd consequence:
namely a situation where a non-operator is
empowered to hold an operator hostage, preventing
29

Cadwallader v. Allstate Ins. Co., 848 So. 2d 577, 580 (La.
2003).
30

La. Civ. Code art. 2046.

31

Preston Law Firm, L.L.C. v. Mariner Health Care Mgmt.
Co., 622 F.3d 384, 392 (5th Cir. 2010) (internal citation
omitted).
32

Gebreyesus v. F.C. Schaffer & Assocs., Inc., 204 F.3d 639,
643 (5th Cir. 2000).
33

Tex. E. Transmission Corp. v. Amerada Hess Corp., 145
F.3d 737, 742 (5th Cir. 1998); see also La. Civ. Code art. 2046
(“When the words of a contract are clear and explicit and lead to
no absurd consequences, no further interpretation may be made
in search of the parties’ intent.”).

18a
the operator from completing a legally required P&A,
in order to extract a better bargain or avoid costsharing altogether. The oddity of that result is
compounded by the fact that Section 18.4 has its own
cost-sharing provision, 34 making the idea that the
operator was required to obtain an AFE to complete
the P&A less tenable. In light of that absurd
consequence, the district court correctly concluded
that the jury needed to resolve the question of the
parties’ intent. 35 We agree therefore that the
question of whether Section 6.2’s expenditure
requirement applies to government-mandated P&A
undertaken pursuant to Section 18.4—which itself
mandates cost-sharing—is ambiguous and was
properly put to the jury.
W&T’s response to the absurdity concern is
unavailing. It suggests that if the parties fail to
agree on costs through the AFE process, the
government can simply conduct the P&A operation
itself and charge the operator and non-operator

34

“The Operator shall conduct the abandonment and removal
of any well, Production System or Facilities required by a
governmental authority, and the Costs, risks and net proceeds
will be shared by the Participating Parties in such well,
Production System or Facilities according to their Participating
Interest Share.”
35

La. Civ. Code art. 2046 (“When the words of a contract are
clear and explicit and lead to no absurd consequences, no
further interpretation may be made in search of the parties’
intent.”); Stewart Enters., Inc. v. RSUI Indem. Co., Inc., 614
F.3d 117 (5th Cir. 2010) (holding that the most straightforward
reading of the contract would lead to an absurd result that
“could not have been intended by the parties”).

19a
later. 36 W&T does not dispute that federal law
required the P&A operation of the Wells—rather it
reads the Section 6.2 AFE requirement to apply to
government-mandated P&A operations and urges
that Apache, having failed to obtain an AFE from
W&T, could have decided not to comply with federal
regulations and allow the government to P&A the
Wells itself. Allowing Apache to evade its obligations
under federal law to P&A the Wells is contrary to its
duty to conduct all operations as would a prudent
operator.37 W&T’s proposed answer to the troubling
consequences of its reading is no solution at all.
V.
Finally, W&T claims that even if Apache was not
barred from recovering damages, W&T is entitled to
an offset based on Jury Question No. 5 and that the
damages award of $43,214,515.83 should be reduced
by $17 million. As to the legal basis for the offset,
W&T points to “the basic law of damages” in
Louisiana set out in La. Civ. Code art. 1995 that
damages cannot place the obligee in a better position
than it would have been in if the contract had been
fulfilled. W&T posits that the jury determined that a
$17 million offset was appropriate to account for the
savings that Apache enjoyed by not incurring the
36

“If parties cannot agree about costs and thus fail to P&A
wells, the government can arrange for the P&A, deem the bond
the working interest owners were required to provide forfeited
to the amount that would cover P&A costs, and charge the
working interest owners for any excess costs.”
37

“The Operator shall conduct all operations in a good and
workmanlike manner, as would a prudent operator under the
same or similar circumstances.”

20a
stacking costs for the rigs. In its view, the jury
credited testimony that Apache would have incurred
stacking costs between $29.5 million and $36.4
million and adopted the $17 million figure as a
reasonable determination of Apache’s windfall. The
district court denied W&T’s motion for entry of
judgment and motion for a new trial, concluding that
W&T was not entitled to an offset on the basis of
Question 5. Specifically, the district court
determined that Questions 2 and 5 were not linked,
and offset was unavailable as an affirmative defense
under any of W&T’s theories.
Article 1995 provides that “[d]amages are
measured by the loss sustained by the obligee and
the profit of which he has been deprived.” 38 “The
measure of damages for a breach of contract is the
sum that will place plaintiff in the same position as if
the obligation had been fulfilled.”39 On Question 2,
the jury was instructed in accordance with Article
1995 to calculate “an amount that is fair
compensation for those damages.” The court then
explained to the jury:
Damages are measured by the loss sustained
by the non-breaching party. These are called
compensatory damages. The damages amount
is the amount that will place Apache in the
position it would have been in if the parties’
contract had been properly performed. The
38
39

La. Civ. Code art. 1995.

Gloria’s Ranch LLC v. Tauren Exploration, Inc., 252 So. 3d
431, 445–46 (La. 2018) (internal citation and quotation marks
omitted).

21a
damages include the amount a party owed
under the contract.
The jury was instructed to determine the actual
loss sustained without reference to Question 5.
W&T’s own closing argument emphasized this
understanding, encouraging the jury in calculating
an amount for Question 2 to subtract the amount of
savings W&T attributed to Apache’s avoiding the
stacking costs by using the rigs. 40 W&T’s offset
argument on appeal ignores the fact that the jury
instructions with respect to Question 2 tracked the
language of Article 1995. The two cases W&T relies
on do not offer a theory entitling W&T to offset. In
Evangeline Parish School Bd. v. Energy Contracting
Servs., Inc., the Louisiana appellate court considered
a damages award in favor of an obligee to an energysavings services contract.41 The court reaffirmed the
general principle of Article 1995 that “[d]amages for
obligor’s failure to perform are measured by the loss
sustained by the obligee and the profit of which he
has been deprived” and remanded, noting that the
experts failed to calculate the amount overcharged
and the appellate court was therefore “unable to
make such a determination from the record.”42 There
is no lack of clarity in the record here—W&T simply
40

“Number two is the damage issue. We believe that if you
get to that issue, and you believe that somehow damages should
be awarded in this case, they say it is 43.2 million. We think
they benefited anywhere ... between 29 to 36 million. So we
believe you should subtract that from any damage amount you
decide to award in the case.”
41

617 So. 2d 1259 (La. App. 3d. 1993).

42

Id. at 1267.

22a
disputes the jury’s rejection of its stacking costs
theory. In Swoboda v. SMT Prop., LLC, the
Louisiana appellate court considered the damages
award in a contract dispute involving the
construction of a residential home.43 In accordance
with Article 1995, the court “consider[ed] the benefit
to plaintiffs in maintaining ownership and
possession of the adjacent lot [and] conclude[ed] that
plaintiffs [we]re not entitled to reimbursement.” 44
Again, W&T ignores that the jury was instructed in
accordance with Article 1995 and explicitly
calculated the actual loss sustained by Apache.
W&T’s stacking costs theory was rejected by the jury
and it has offered no legal theory to support
upsetting that verdict.
W&T posits two additional legal bases to support
an offset in Apache’s damages award. First, W&T
suggests that Article 2323, governing comparative
fault, provides an independent legal basis for a
reduction. Article 2323 applies in tort cases; the Civil
Code provides its own rule governing comparative
fault in contract cases—Article 2003—that we have
already determined does not aid W&T here.45 W&T
also claims the doctrine of compensation under
Article 1893 gives independent grounds for an

43

975 So. 2d 691 (La. App. 2008).

44

Id. at 695.

45

See Justiss Oil Co. v. Oil Country Tubular Corp., 216 So. 3d
346, 356–57 (La. Ct. App.), writ denied, 227 So. 3d 830 (La.
2017) (quoting Hanover Ins. Co. v. Plaquemines Parish Gov’t,
No. 12–1680, 2015 WL 4167745, at *5–6 (E.D. La. July 9,
2015)).

23a
offset.46 As the district court correctly noted, W&T
“previously admitted neither [compensation or
unjust enrichment] could be the basis of the jury’s
finding, as that was not the nature of the evidence
presented to the jury.” In its post-verdict briefing,
W&T conceded that Article 1893 did not apply,
because “the jury was not instructed on the specific
requirements of the traditional doctrine of offset or
setoff, which requires debts owed by both parties
being offset against each other.” Neither comparative
fault nor compensation provide a basis for a
reduction in the damages award here.
Finally, W&T offers a last-ditch argument that the
jury award was clearly excessive because of Apache’s
savings on the stacking costs. The district court did
not abuse its discretion in denying W&T’s motion for
a new trial or remittitur. We agree with the district
court the damages award was supported by
substantial evidence. The jury logically awarded the
precise amount that W&T shorted by making a
partial payment after the P&A operation. Such an
award was not excessive or “contrary to right
reason”—rather, it reflects that the jury’s
consideration of the evidence led it to reject W&T’s

46

Article 1893 provides that “Compensation takes place by
operation of law when two persons owe to each other sums of
money or quantities of fungible things identical in kind, and
these sums or quantities are liquidated and presently due. In
such a case, compensation extinguishes both obligations to the
extent of the lesser amount.” La. Civ. Code art. 1893.

24a
assertion that Apache enjoyed a windfall by avoiding
the stacking costs.47
VI.
For the foregoing reasons, the judgment of the
district court is affirmed.

47

Laxton v. Gap, Inc., 333 F.3d 572, 586 (5th Cir. 2003)
(“When a damage award is merely excessive or so large as to
appear contrary to right reason, remittitur is the appropriate
remedy.”).

25a
APPENDIX B
_________
UNITED STATES DISTRICT COURT,
SOUTHERN DISTRICT OF TEXAS,
HOUSTON DIVISION
_________
APACHE DEEPWATER LLC,
Plaintiff,
v.
W&T OFFSHORE, INC.,
_________

Defendant.

Civil Action No. H-15-0063
_________
Signed 05/31/2017
_________
Attorneys and Law Firms
Abigail Claire Noebels, Geoffrey L. Harrison,
Susman Godfrey LLP, Houston, TX, for Plaintiff.
Bryon A. Rice, David J. Beck, Beck Redden LLP,
Houston, TX, for Defendant.
ORDER AND FINAL JUDGMENT
DAVID HITTNER, United States District Judge
Pending before the Court are W&T Offshore, Inc.’s
Motion for Entry of Judgment (Document No. 125)
and Apache’s Motion for Entry of Final Judgment
(Document No. 126). Having considered the motions,
submissions, and applicable law, the Court

26a
determines W&T’s motion should be denied and
Apache’s motion should be granted.
On October 17, 2016, the Court commenced a tenday jury trial in the above-titled action. The trial
concluded on October 28, 2016, with closing
arguments, and the jury commenced deliberations
and returned a verdict that same day. The Court
issued a five-question jury charge, which resulted in
the following verdict:
1) Did W&T fail to comply with the Contract
by failing to pay its proportionate share of
the costs to plug and abandon the MC 674
wells?1
Answer: Yes.
2) What sum of money, if any, would
compensate Apache for W&T’s failure to
pay its proportionate share of the costs to
plug and abandon the MC 674 wells?2
Answer: $43,214,515.83.
3) Was Apache required to obtain W&T’s
approval under Section 6.2 of the Contract
1

The jury was instructed as to Question 1 that “[a]ll contracts
must be performed in good faith” and “W&T’s obligation to pay
its proportionate share of costs to plug and abandon the wells
only arises if you find that Apache complied with Section 5.1
and Section 5.2 of the Contract.” Jury Instructions, Document
No. 120 at 10–11.
2

The jury was instructed to award compensatory damages in
“the amount that [would] place Apache in the position it would
have been in if the parties’ contract had been properly
performed.” Jury Instructions, Document No. 120 at 12.

27a
before Apache plugged and abandoned the
MC 674 wells as required under Section
18.4 of the Contract?
Answer: No.
4) Did Apache act in bad faith thereby
causing W&T to not comply with the
contract?
Answer: Yes.
5) By what amount, if any, should the amount
you found in response to Jury Question No.
2 be offset?
Answer: $17,000,000.00.
Following the jury’s verdict, the parties filed crossmotions for entry of judgment. W&T contends the
jury’s finding on Question 4 precludes Apache from
recovering any amount of damages, and in the
alternative, the jury’s award of damages in Question
2 be offset by the amount in Question 5. W&T does
not contest the jury’s verdict as to Questions 1–3,
only the effect of those answers given how the jury
answered Questions 4–5. Apache contends the bad
faith provision underlying Question 4 would only
preclude recovery if the jury had found Apache
breached the contract and that Question 5’s offset is
not available under Louisiana law.3 Further, Apache

3

Apache also contends W&T did not properly plead and
waived both the bad faith and offset defense, to extent either
might be found applicable. As the Court below finds neither
defense applicable under Louisiana law, the Court need not
address that contention.

28a
contends as the prevailing party it is entitled
reasonable attorneys’ fees and costs.
A. Question 4: Louisiana Civil Code Article 2003
W&T contends there is no controlling Louisiana
case law interpreting Article 2003 and under the
statute’s plain meaning there was sufficient evidence
at trial to support the jury’s finding of bad faith.
Apache contends there is a controlling Louisiana
Supreme Court case that first requires a finding that
Apache breached the contract in order to support a
bar to recovering damages pursuant to Article 2003.
In diversity cases, “federal courts must apply state
substantive law.” In Re Katrina Canal Breaches
Litig., 495 F.3d 191, 206 (5th Cir. 2007). “In order to
determine state law, federal courts look to final
decisions of the highest court of the state. When
there is no ruling by the state’s highest court, it is
the duty of the federal court to determine as best it
can, what the highest court of the state would
decide.” Transcon. Gas Pipe Line Corp. v. Transp.
Ins. Co., 953 F.2d 985, 988 (5th Cir. 1992).
Where Louisiana law applies in a diversity case,
courts first look to “final decisions of the Louisiana
Supreme Court.” In re Katrina, 495 F.3d at 206. In
the absence of a final decision, courts make an Erie
guess employing Louisiana’s civilian methodology.
Id. Louisiana’s Civil Law tradition looks first to
primary sources of law—the constitution, codes, and
statutes—and then to secondary sources of law, such
as decisions of Louisiana’s intermediate courts. Id.
(internal citations omitted). The concept of stare
decisis is foreign to Louisiana civil law. Transcon.

29a
Gas Pipe Line, 953 F.2d at 988. While courts are not
strictly bound by decisions of Louisiana appellate
courts, under the concept of jurisprudence constante,
courts do take appellate decisions into account when
there are numerous decisions in accord on a given
issue. Id. However, “jurisprudence, even when it
rises to the level of jurisprudence constante, is a
secondary law source in Louisiana.” In re Katrina,
495 F.3d at 206. Although federal courts are not
“strictly bound” by Louisiana intermediate court
decisions, when sitting in diversity, courts will not
disregard those decisions unless they are “convinced
that the Louisiana Supreme Court would decide
otherwise.” Id.
The parties agree Louisiana law controls this
action. The parties dispute whether there is a final
Louisiana Supreme Court case interpreting the “bad
faith” clause of Louisiana Civil Code Article 2003.
Specifically, the parties dispute the scope of the
Supreme Court’s decision in Lamar Contractors, Inc.
v. Kacco, Inc., 189 So. 3d 394 (La. 2016). W&T
contends Lamar only addresses the negligence clause
in Article 2003. Apache contends Lamar’s holding
pertains to Article 2003 in its entirety. Thus,
whether Lamar is binding on this Court, while
sitting in diversity, turns on the scope of Lamar’s
holding. If Lamar first interprets Article 2003
generally and then applies that interpretation to the
specific question presented under the negligence
clause, this Court is bound by Lamar as a Louisiana
Supreme Court final decision. If Lamar only
interprets Article 2003’s negligence clause, the Court
would be required to interpret the text of Article
2003’s bad faith clause in the first instance utilizing

30a
the primary sources of law in Louisiana’s civilian
methodology. The Court, therefore, turns to the
Lamar decision.
Lamar arrived at the Louisiana Supreme Court
following the appellate court’s affirmance of the trial
court reducing breach of contract damages for a
general contractor (Lamar), after finding that
Lamar’s
negligence
contributed
to
the
subcontractor’s (Kacco) failure to perform. 189 So. 3d
at 395–97. The Louisiana Supreme Court granted
certiorari on the issue of whether the “district court
erred in reducing Lamar’s damages for breach of
contract based on a finding that Lamar’s negligence
contributed to Kacco’s breach of the contract.” Id. at
397. Louisiana Civil Code article 2003 provided the
statutory basis for the district court’s reduction.
Article 2003 provides:
An obligee may not recover damages when his
own bad faith has caused the obligor’s failure
to perform or when, at the time of the contract,
he has concealed from the obligor facts that he
knew or should have known would cause
failure.
If the obligee’s negligence contributes to the
obligor’s failure to perform, the damages are
reduced in proportion to that negligence.
LA. CIV. CODE ART. 2003.
Article 2003’s second sentence, which pertains to
an obligee’s negligence, was bolded by the Lamar
court. 189 So. 3d at 397. However, nothing in the
analysis that follows restricts the Lamar court’s
analysis of Article 2003 to the negligence provision.

31a
Article 2003 is cited in its entirety and the decision
contains no limiting language stating the only
relevant provision of the Article for the analysis is
the second sentence. The court’s construction of the
statute turned on interplay between good faith and
bad faith—not between good faith and negligence.
Immediately following the statute’s quotation, the
court notes “this obligation” is correlative to the
general duty to perform contracts in good faith as
codified in Louisiana Civil Code article 1983. Id. at
397. While the court does not specify whether “this
obligation” refers to Article 2003 in whole or merely
the bolded negligence clause, the analysis that
follows clarifies the court is interpreting Article 2003
globally because the interpretation of any
entitlement to relief in Article 2003 is derived in part
from the meaning of good faith in Article 1983.
In articulating the definition of good faith, the
court quotes at length Professor Saul Litvinoff’s law
review article that postulates a promisee must
affirmatively enable a promisor to perform, in
addition to refraining from hindering performance.
Id. at 398. This general duty of good faith is,
however, “regulated and circumscribed by the
obligations imposed by the parties’ contract.” Id. The
court then cited two cases interpreting Article 2003’s
predecessor statute, Board of Levee Commissioners of
Orleans Levee District v. Hulse, 120 So. 589 (La.
1929) and Favrot v. Favrot, 68 So.3d 1099 (La. Ct.
App. 2011). Id. Board of Levee and Favrot both hold
an obligor must establish an obligee breached a
contractual obligation to show the obligor is entitled
to relief under Louisiana Civil Code article 1934
(1870), which was Article 2003’s predecessor statute.

32a
Id. (noting Board of Levee requires showing a breach
of obligations making it difficult for the defendant to
perform and Favrot states an examination of good or
bad faith only becomes relevant after showing an
obligation has been breached). The Court then
concluded, “[t]aken as a whole, these authorities
support the proposition that an obligor cannot
establish an obligee has contributed to the obligor’s
failure to perform unless the obligor can prove the
obligee itself failed to perform duties owed under the
contract.” Id. Applying this holding to the specific
facts in Lamar, the court found the subcontractor
could not show the contractor violated any obligation
under the contract, and therefore, the contractor
could not have negligently contributed to the
subcontractor’s failure to perform. Id. at 398–99.
Lamar in effect establishes a two-step process for
showing entitlement to relief under Article 2003.
Before it becomes relevant whether the bad faith or
negligence provision of Article 2003 is implicated, the
obligor must first establish the obligee has also failed
to perform a contractual obligation that caused the
obligor’s failure to perform. Only once an obligor
establishes a failure of the obligee is there
entitlement to relief under either the bad faith or
negligence provision, and then it becomes relevant
whether the facts support a bad faith or negligence
finding. Notably, none of the authorities relied on by
the Lamar court involved a purported entitlement to
a reduction in damages due to negligence by the
obligee. As such, despite arising in the negligence
context, Lamar is a final Louisiana Supreme Court
decision pertaining to when entitlement to relief
under Article 2003 is available generally and not

33a
only when a obligor asserts a right to a reduction in
damages due to an obligee’s negligence. Accordingly,
as a final Supreme Court decision, this Court is
bound by the Lamar court’s holding that an obligor
must first establish a breach by the obligee.
Here, Apache is the obligee and W&T is the obligor.
To avoid liability pursuant to Article 2003, on the
jury’s Question 1 finding that W&T breached the
contract, W&T would have to show Apache failed to
comply with the contract and Apache’s failure caused
W&T’s breach. The jury did not find that Apache
breached any obligation.4 As to Question 1, the jury
was instructed the contract included an obligation of
good faith performance. Therefore, the jury’s finding
that W&T breached its obligations under Sections
5.1 and 5.2 necessarily includes a finding Apache
acted in good faith. This in turn precludes a finding
of bad faith by Apache based on any of the evidence
pertaining to Jury Question 1. Accordingly, the
Court sets aside the jury’s finding on Question 4,
that Apache’s bad faith caused W&T’s failure to
perform, as W&T is not entitled to relief pursuant to
Article 2003 under the facts of this case and given
the jury’s findings. Therefore, the Court grants
Apache’s motion for entry of judgment finding that
W&T is not entitled to a reduction in damages under
Louisiana law.

4

For example, had the jury answered Question 3 in the
affirmative that would have established the failure to perform
an obligation by Apache.

34a
B. Question 5: Availability of Offset under Louisiana
Law
W&T contends it is entitled to an offset of the jury’s
award to Apache in Question 2 in the amount of the
jury’s answer to Question 5. Apache contends any
potential basis W&T could assert entitling W&T to
an offset is not available under Louisiana law.
“Damages are measured by the loss sustained by
the obligee and the profit of which he has been
deprived.” LA. CIV. CODE ART. 1995. “When
damages are insusceptible of precise measurement,
much discretion shall be left to the court for the
reasonable assessment of these damages.” LA. CIV.
CODE ART. 1999. “Louisiana law provides that no
unjust enrichment claim shall lie when the claim is
based on a relationship that is controlled by an
enforceable contract.” Drs. Bethea, Moustoukas and
Weaver LLC v. St. Paul Guardian Ins. Co., 376 F.3d
399, 408 (5th Cir. 2004); see also LA. CIV. CODE
ART. 2298 (unjust enrichment is not available where
“the law provides another remedy for the
impoverishment or declares a contrary rule”).
Even if W&T sufficiently pleaded offset as an
affirmative defense, and not merely in regards to
W&T’s audit counter-claims, it is not available under
the circumstances of this case. As to Question 2, the
jury was instructed that: “Damages are measured by
the loss sustained by the non-breaching party. These
are called compensatory damages. The damages
amount is the amount that will place Apache in the
position it would have been in if the parties’ contract
had been properly performed. The damages include

35a
the amount a party owes under the contract.”5 The
jury found the answer to Question 2 was
$43,214,515.83. In reaching that calculation, the jury
necessarily accounted for proper performance of the
contract and any amounts owed per the question’s
instructions.
W&T contends that Questions 2 and 5 are linked.
However, the jury was instructed on Question 2 to
find the actual harm to Apache when instructed to
find a damage amount that “place[s] Apache in the
position it would have been in if the parties’ contract
had been properly performed.” No instruction was
provided in Question 5 defining offset. Nor was
Question 5 predicated on the jury making a certain
finding on a prior question. Without the Court
predicating Question 5 or instructing the jury to link
Questions 2 and 5 to calculate actual harm, and
given the jury’s explicit instructions on Question 2,
the jury was not instructed to calculate actual harm
by combining its answers to Questions 2 and 5.
Therefore, unless offset is both legally available as
an affirmative defense under Louisiana law and the
$17,000,000.00 is supported by substantial evidence,
the Court will not reduce the jury’s finding on
Question 2.
The Court need not determine whether substantial
evidence supports the jury’s answer to Question 5, as
there is not a legal basis for Question 5 under
Louisiana law. New Orleans Pacific Railway
Company v. Gay, 31 La. Ann. 430 (La. App. 1879),
does not support awarding an offset in a breach of
5

Jury Instructions, Document No. 120 at 12.

36a
contract case. The offset provided for in Gay was in
the context of a land-use taking, not a breach of
contract. Gay, 31 La. Ann. at 432. Nor do the
additional three cases W&T cites support an offset in
a breach of contract case. Storey v. Weaver, 139 So.
3d 1079, 1085 (La. App. 2014), involved an offset for
the plaintiff’s out-of-pocket costs applied against the
defendant’s credit for substantial performance, not
an offset against a plaintiff’s damages. Bienvenu v.
State Farm Mut. Auto. Ins. Co., 545 So. 2d 581 (La.
Ct. App. 1989), involved an offset governed by
Louisiana’s community property statutes, not the
breach of contract statutes that govern this case.
Stern v. Kreeger Store, Inc., 463 So. 2d 709 (La. Ct.
App. 1985), involved a case where the plaintiff failed
to present evidence of the present value of an item
purchase five years earlier, and because damages
were indeterminate, the court offset the damages by
the value derived from the use of the item. Here,
Apache presented sufficient evidence as to the
precise value of the breach of the contract. Further,
because the claim is controlled by an enforceable
contract, W&T is not entitled to an offset in the
amount found in Question 5 under a theory of unjust
enrichment. Accordingly, because there is no basis
under Louisiana law for an offset, or in the Court’s
jury instructions to support a reduction in the jury’s
award absent entitlement to an offset, the Court sets
asides the jury’s finding on Question 5 and grants
Apache’s motion for entry of judgment.
C. Prejudgment and Post–Judgment Interest
Apache contends under the terms of the contract it
is entitled to prejudgment interest as the prevailing
party. W&T does not contest Apache’s contention. On

37a
October 27, 2016, the parties entered into a
stipulation agreeing that if Apache recovers
damages, it is entitled to “recover interest on the
damages amount calculated in accordance with the
parties’ 1999 Unit Operating Agreement, Exhibit C,
section I.3.B.”6 Section I.3.B allows for the recovery
of prejudgment interest. 7 Uncontested evidence at
trial showed that as of October 1, 2016, prejudgment
interested had accrued in the amount of
$1,926,734.88. 8 Accordingly, per the parties’
stipulation and Section I.3.B, the Court grants
prejudgment interest to Apache in the amount of
$1,926,734.88, plus any additional interest that has
accrued between October 1, 2016, and the date of the
entry of judgment. Apache’s motion for post-

6

Stipulations, Document No. 100 at 1.

7

Section I.3.B provides, in relevant part:
Except as provided below, each Party shall pay its
proportion of all bills within fifteen (15) days of
receipt date. If payment is not made within such time,
the unpaid balance shall bear interest compounded
monthly using the U.S. Treasury Bill three month
rate plus 3% in effect on the first day of the month for
each moth that the payment is delinquent or the
maximum contract rate permitted by the applicable
usury laws in the jurisdiction in which the Join
Property is located, whichever is the lessor, plus
attorney’s fees, court costs, and other costs in
connection with the collection of unpaid amounts.
Interest shall begin accruing on the day of the month
in which the payment was due.
Plaintiff’s Trial Exhibit 1 at W&T 00001075.

8

Trial Transcript, Document No. 102 at 141:15–142:14.

38a
judgment interest in accordance with 28 U.S.C.
§ 1961 is also granted.
D. Attorneys’ Fees and Costs
Apache contends it is entitled to recover attorneys’
fees as the prevailing party and costs under the
terms of the contract. W&T contends, if the Court
finds Apache is the prevailing party, it has a
stipulated agreement with Apache as to the amount
of attorneys’ fees and costs but contests whether
Apache is entitled to all categories of costs.
1. Costs
Apache contends it is entitled to recover all costs
associated with the litigation per the terms of the
contract. W&T contends Apache is only entitled to
costs recoverable under 28 U.S.C. § 1920. Section
I.3.B of the Joint Operating Agreement provides that
a party is entitled to “attorney’s fees, court costs, and
other costs in connection with the collection of
unpaid amounts.” 9 Under the contractual terms,
W&T agreed to pay “other costs in connection with
the collection of unpaid amounts.” W&T does not
provide legal support for its contention that the
general term “other costs in connection with
collection of unpaid amounts” should be limited to
the specific categories in 28 U.S.C. § 1920. OMG, LP
v. Heritage Auctions, Inc., No. 3:13–CV–1404–L,
2015 WL 12672698, at *4 (N.D. Tex. Apr. 14, 2015),
does not limit contractually recoverable costs to
those costs listed in 28 U.S.C. § 1920. While the
OMG plaintiff asserted it was seeking contractual
9

Plaintiff’s Trial Exhibit 1 at W&T 00001075.

39a
and not statutory costs, the court had found that
OMG was not contractually entitled to costs and
failed to timely file a bill of costs for recovery
pursuant to 28 U.S.C. § 1920. Id. Apache has shown
a contractual basis to recover not just “court costs,”
but “other costs in connection with collection of
unpaid amounts.” Thus, Apache is entitled to recover
all categories of costs sought in this litigation under
the contract. The parties stipulated that if the Court
finds Apache is entitled to recover all categories, the
following costs are reasonable and necessary: (1)
$31,000.00 in litigation costs; (2) $610,000 in expert
costs; (3) $50,000.00 in external document processing
and printing costs; (4) $6,500.00 in court reporting
costs; (5) $27,000 in private court reporting and
videographer service costs; and (6) $25,500 in
demonstrative vendor costs. 10 This amount totals
$750,000. 11 Accordingly, the Court grants Apache’s
motion and awards all costs associated with
collection of the unpaid contractual debt in the
amount stipulated to by the parties as reasonable
and necessary.

10

Stipulation re Attorney’s Fees and Costs, Document No. 128,

¶ 3.
11

Apache’s motion requests $1,000,595.76 in costs. Apache’s
Motion for Entry of Final Judgment, Document No. 126 at 20.
However, Apache has not provided the Court with a basis for
departing from the amount stipulated to as reasonable and
necessary in Document No. 128. Therefore, the Court will
award costs in accordance with the parties’ stipulation.
Apache’s proposed final judgment only requests costs in the
amount of $750,000.00. See Apache’s Response in Opposition to
W&T’s Motion for Entry of Judgment, Document No. 131,
Exhibit 1 at 4 (Final Judgment).

40a
2. Attorneys’ Fees
Apache contends it is entitled to reasonable and
necessary attorneys’ fees under the contract’s terms
in a stipulated amount. W&T does not contest
Apache’s entitlement to attorneys’ fees in a
stipulated amount, if the Court finds Apache is the
prevailing party. The parties stipulated that, if
Apache is the prevailing party, $1,750,000.00 is a
reasonable and necessary amount of attorneys’ fees
for Apache to have incurred in collecting the unpaid
amounts at issue in the litigation.12
a. Calculation of Attorneys’ Fees
The Fifth Circuit utilizes the two-step lodestar
method to calculate an award of attorneys’ fees.
Forbush v. J.C. Penney Co., 98 F.3d 817, 821 (5th
Cir. 1996). Under the lodestar method, the court
determines the reasonable number of hours
expended on the litigation by the movant’s attorney
and the reasonable hourly rate for the movant’s
attorney. Id. The court then calculates the lodestar
by multiplying the reasonable number of hours by
the reasonable hourly rate. Id. There is a strong
presumption of the reasonableness of the lodestar
amount. Saizan v. Delta Concrete Prods. Co., 448
F.3d 795, 800 (5th Cir. 2006). However, once the
lodestar is calculated, the court may adjust the
lodestar upward or downward as necessary, based on
the twelve factors established in Johnson v. Georgia
Highway Express, Inc., to make the award of
attorneys’ fees reasonable. Saizan, 448 F.3d at 800;
12

¶ 2.

Stipulation re Attorney’s Fees and Costs, Document No. 128,

41a
Johnson v. Georgia Highway Express, Inc., 488 F.2d
714, 717—19 (5th Cir. 1974). The movant bears the
burden of establishing the reasonableness of the
hours expended and rate charged. Riley v. City of
Jackson, Miss., 99 F.3d 757, 760 (5th Cir. 1996).
i. Reasonable Number of Hours
To establish the reasonable number of hours
expended on the litigation by the movant’s attorney,
“courts customarily require the [movant] to produce
contemporaneous billing records or other sufficient
documentation so that the district court can fulfill its
duty to examine the application for noncompensable
hours.” Bode v. United States, 919 F.2d 1044, 1047
(5th Cir. 1990). Courts examine both “whether the
total number of hours claimed were reasonable and
whether specific hours claimed were reasonably
expended.” LULAC v. Roscoe Indep. Sch. Dist., 119
F.3d 1228, 1232 (5th Cir. 1997). The movant must
also produce evidence of billing judgment which is
“documentation of the hours charged and of the
hours written off as unproductive, excessive or
redundant.” Saizan, 448 F.3d at 799. Courts are to
exclude from the lodestar calculation all time that is
“excessive, duplicative, or inadequately documented.”
Watkins v. Fordice, 7 F.3d 453, 457 (5th Cir. 1993).
Apache requests a fee award based on the hours
expended by its counsel and paralegals as follows: (1)
Geoffrey Harrison at 684.2 hours; (2) William Merrill
at 1,324.6 hours; (3) Ashley McMillian at 1,361.2
hours; (4) Abigail Noebels at 935.4 hours; (5) Jeffrey
McLaren at 836.9 hours; and (6) Rebecca Beard at

42a
283.7 hours. 13 Apache does not seek fees for
additional timekeepers who worked 279.6 hours on
the matter.14 As support for this request, Apache has
submitted a declaration by William Merrill detailing
the hours billed and the services rendered for those
hours, in addition to summaries of the bills.15 After
reviewing the evidence submitted, the Court finds
that Apache has exercised reasonable billing
judgment.
ii. Reasonable Hourly Rate
To establish the reasonable hourly rate for the
movant’s attorney, courts must consider the
attorney’s regular rate as well as the prevailing
market rate, which is the rate “prevailing in the
community for similar services by lawyers of
reasonably comparable skill, experience and
reputation.” Blum v. Stenson, 465 U.S. 886, 896 n.11
(1984). “[T]he fee applicant bears the burden of
establishing entitlement to an award and
documenting the appropriate ... hourly rate.” La.
Power & Light Co. v. Kellstrom, 50 F.3d 319, 328 (5th
Cir. 1995) (quoting Hensley v. Eckerhart, 461 U.S.
424, 437 (1983)). If an attorney’s customary rate is
13

Apache’s Motion for Entry of Final Judgment, Document
No. 126, Exhibit 5, ¶ 6 (Declaration of William R. H. Merrill)
[hereinafter Merrill Declaration].
14

Merrill Declaration, supra note 13, ¶ 11. Additionally, on
October 12, 2016, Apache and Susman Godfrey converted their
hourly fee arrangement to a contingent fee arrangement.
Merrill Declaration, supra note 13, ¶ 5.
15

Merrill Declaration, supra note 13, ¶¶ 5—20; Apache’s
Motion for Entry of Final Judgment, Document No. 126, Exhibit
6 at 1 (Summary of Fees and Costs Incurred).

43a
requested and that rate is within the range of the
usual market rates it is prima facie reasonable if
uncontested. La. Power & Light Co, 50 F.3d at 328. A
court may use their own expertise and judgment to
make an independent determination of the value of
an attorney’s services. Davis v. Bd. Of Sch. Comm’rs
of Mobile Cnty., 526 F.2d 865, 868 (5th Cir. 1976).
Apache has requested the following rates for its
counsel to be used in calculating the lodestar: (1)
Geoffrey Harrison at $746.50 per hour averaged; (2)
William Merrill at $517.41 per hour averaged; (3)
Ashley McMillian at $450 per hour; (4) Abigail
Noebels at $350 per hour; (5) Jeffrey McLaren at
$270 per hour; and (6) Rebecca Beard at $125 per
hour.16 William Merrill’s declaration states these fees
were in line with the usual and customary fees
charged in the community for similar matters by
attorneys and paralegals from comparable firms.17
The Court in its expertise and judgment finds these
are reasonable rates and will use them in calculating
the lodestar.
iii. Lodestar Calculation
The lodestar is calculated by multiplying the
reasonable number of hours expended on the
litigation by the reasonable hourly rate. Forbush, 98
F.3d at 821. Having determined the reasonable
number of hours expended and the reasonable hourly
rate, the Court determines the attorneys’ fees

16

Merrill Declaration, supra note 13, ¶ 20.

17

Merrill Declaration, supra note 13, ¶¶ 12–20.

44a
incurred totaled $2,395,130.75. 18 Additionally,
Apache receives a five-percent professional courtesy
discount. 19 With that reduction, the lodestar is
$2,275,374.21.
iv. Adjustment to the Lodestar
There is a strong presumption that the lodestar is
reasonable, and it should be modified only in
exceptional cases. Watkins, 7 F.3d at 458 (citing City
of Burlington v. Dague, 505 U.S. 557, 562 (1992)).
When deciding whether to make an adjustment to
the lodestar, courts consider the Johnson factors,
which are as follows: (1)the time and labor required;
(2) the novelty and difficulty of the questions; (3) the
skill required to perform the legal services; (4) the
preclusion of other potential employment by the
attorney; (5) the customary fee charged for similar
services in the relevant community; (6) whether the
fee is fixed or contingent; (7) time limitations
imposed by the client or circumstances; (8) the
amount involved and the results obtained; (9) the
experience, reputation, and ability of the attorneys;
(10) the undesirability of the case; (11) the nature
and length of the professional relationship with the
client; and (12) awards in similar cases. Johnson,
488 F.2d at 717–19. However, the most critical factor
in the analysis is the “degree of success obtained.”
Jason D. W. v. Hous. Indep. Sch. Dist., 158 F.3d 205,
209 (5th Cir. 1998). Moreover, some of the factors are
often subsumed in the initial lodestar calculation;
therefore, courts cannot consider factors that were
18

Merrill Declaration, supra note 13, ¶ 20.

19

Merrill Declaration, supra note 13, ¶¶ 14, 20.

45a
already taken into account during the initial lodestar
calculation when deciding whether to adjust the
loadstar. Id.
The Court has carefully considered each of the
Johnson factors as applied to this case and
determines that their consideration is accurately
reflected in the lodestar. However, here the parties
have stipulated to, and Apache only seeks to recover,
a reduced amount of attorneys’ fees from the lodestar
calculation in the amount of $1,750,000.00. 20
Accordingly, Apache is entitled to recover the
stipulated attorneys’ fees from W&T in the amount
of $1,750,000.00.
E. Conclusion and Final Judgment
Accordingly, the Court hereby
ORDERS that W&T Offshore, Inc.’s Motion for
Entry of Judgment (Document No. 125) is DENIED.
The Court further
ORDERS that Apache’s Motion for Entry of Final
Judgment (Document No. 126) is GRANTED. The
Court further
ORDERS that Plaintiff Apache Deepwater LLC
recover from Defendant W&T Offshore, Inc.,
compensatory damages in the amount of
$43,214,515.83; prejudgment interest in accordance
with the parties’ 1999 Unit Operating Agreement,
Exhibit C, section I.3.B; post-judgment interest as
provided in 28 U.S.C. § 1961; attorneys’ fees in the
20

¶ 2.

Stipulation re Attorney’s Fees and Costs, Document No. 128,

46a
amount of $1,750,000.00; and costs in the amount of
$750,000.00, as consistent with this order.
THIS IS A FINAL JUDGEMENT.

47a
APPENDIX C
_________
UNITED STATES DISTRICT COURT,
SOUTHERN DISTRICT OF TEXAS,
HOUSTON DIVISION
_________
APACHE DEEPWATER LLC,
Plaintiff,
v.
W&T OFFSHORE, INC.,
_________

Defendant.

Civil Action No. H-15-0063
_________
Signed 08/25/2017
_________
Attorneys and Law Firms
Geoffrey L. Harrison, Abigail Claire Noebels, Ashley
Lauren McMillian, William RH Merrill, Susman
Godfrey LLP, Houston, TX, for Plaintiff.
Bryon A. Rice, David J. Beck, Beck Redden LLP,
Houston, TX, for Defendant.
ORDER AND FINAL JUDGMENT
DAVID HITTNER, United States District Judge
Pending before the Court are W&T Offshore, Inc.’s
Motion for New Trial or Remittitur (Document No.
146) and W&T Offshore, Inc.’s Renewed Motion for
Judgment as a Matter of Law and Motion to Alter or
Amend the Judgment (Document No. 147). Having

48a
considered the motions, submissions, and applicable
law, the Court determines the motions should be
denied.
I. BACKGROUND
On October 17, 2016, the Court commenced a tenday jury trial in the above-titled action. The trial
concluded on October 28, 2016, with closing
arguments, and the jury commenced deliberations
and returned a verdict that same day. The Court
issued a five-question jury charge, which resulted in
the following verdict:
1) Did W&T fail to comply with the Contract
by failing to pay its proportionate share of
the costs to plug and abandon the MC 674
wells?1
Answer: Yes.
2) What sum of money, if any, would
compensate Apache for W&T’s failure to
pay its proportionate share of the costs to
plug and abandon the MC 674 wells?2
Answer: $43,214,515.83.
1

The jury was instructed as to Question 1 that “[a]ll contracts
must be performed in good faith” and “W&T’s obligation to pay
its proportionate share of costs to plug and abandon the wells
only arises if you find that Apache complied with Section 5.1
and Section 5.2 of the Contract.” Jury Instructions, Document
No. 120 at 10–11.
2

The jury was instructed to award compensatory damages in
“the amount that [would] place Apache in the position it would
have been in if the parties’ contract had been properly
performed.” Jury Instructions, Document No. 120 at 12.

49a
3) Was Apache required to obtain W&T’s
approval under Section 6.2 of the Contract
before Apache plugged and abandoned the
MC 674 wells as required under Section
18.4 of the Contract?
Answer: No.
4) Did Apache act in bad faith thereby
causing W&T to not comply with the
contract?
Answer: Yes.
5) By what amount, if any, should the amount
you found in response to Jury Question No.
2 be offset?
Answer: $17,000,000.00.
Following the jury’s verdict, the parties filed crossmotions for entry of judgment. On May 31, 2017, the
Court denied W&T’s motion for judgment and
granted Apache’s motion for judgment, thereby
entering a judgment for Apache in the amount of
$43,214,515.83, in accordance with the jury’s
findings on Questions 1 and 2, as well as
prejudgment interest, attorneys’ fees, and costs as
provided for in the parties’ contract and statutory
post-judgment interest on the award. In finding for
Apache, the Court found the jury’s answer to
Question 4 was of no effect under Louisiana law,
because W&T did not establish that Apache failed to
perform any contractual obligation that caused
W&T’s breach of the contract. As to Question 5, the
Court found there was no basis under Louisiana law

50a
to support an offset of a damages award in a breach
of contract case.
On June 28, 2017, W&T filed two motions. In the
motion for a new trial or remittitur, W&T contends:
(1) the jury’s findings on Questions 1, 2, and 3 are
against the great weight of the evidence and the
damages award is excessive; (2) the Court’s failure to
submit a jury question regarding Apache’s breach
resulted in prejudice; and (3) the erroneous rulings
as to W&T’s expert, Andrew Derman, substantially
affected the jury’s verdict. In the renewed motion for
judgment and motion to alter or amend the
judgment, W&T contends: (1) Apache’s claim for the
breach of the Joint Operating Agreement (“JOA”)
fails as a matter of law; (2) W&T is entitled to
judgment as a matter of law because it established
its affirmative defenses; and (3) any damage award
should be reduced by the jury’s offset findings.
II. STANDARD OF REVIEW
A. Rule 50(b) Standard
When a court overrules a motion made at the close
of evidence pursuant to Rule 50(a), within twentyeight days “a movant may file a renewed motion for
judgment as a matter of law.” FED. R. CIV. P. 50(b).
“A motion for judgment as a matter of law in an
action tried by jury is a challenge to the legal
sufficiency of the evidence supporting the jury’s
verdict.” Flowers v. S. Reg’l Physician Servs. Inc., 247
F.3d 229, 235 (5th Cir. 2001). After a party has been
fully heard by a jury, “judgment as a matter of law is
proper [if] there is no legally sufficient evidentiary
basis for a reasonable jury to have found for that

51a
party with respect to that issue.” Id. In considering a
Rule 50 motion, courts review “all of the evidence in
the record, draw all reasonable inferences in favor of
the nonmoving party, and may not make credibility
determinations or weigh the evidence.” Coffel v.
Stryker Corp., 284 F.3d 625, 630–31 (5th Cir. 2002).
Judgment as a matter of law “should not be granted
unless the facts and inferences point ‘so strongly an
overwhelmingly in the movant’s favor that
reasonable jurors could not reach a contrary
conclusion.’” Flowers, 247 F.3d at 235 (internal
quotations omitted.)
B. Rule 59(a)(1)(A) Standard
“The court may, on motion, grant a new trial on all
or some of the issues ... after a jury trial, for any
reason for which a new trial has heretofore be
granted in an action at law in federal court.” FED. R.
CIV. P. 59(a)(1)(A). A verdict may be set aside and
new trial granted “if the verdict is against the clear
weight of the evidence,” even if there was substantial
evidence which would have prevented granting
judgment as a matter of law on a Rule 50 motion at
trial. See Reeves v. Gen. Foods Corp., 682 F.2 515,
519 n.6 (5th Cir. 1982).
III. LAW & ANALYSIS
A. W&T’s Renewed Motion for Judgment as a Matter
of Law and Motion to Alter or Amend the Judgment
1. The Sufficiency of the Evidence on Apache’s
Claim for Breach of the JOA as a Matter of Law
W&T first contends as matter of contract
interpretation that it did not breach the JO A as a

52a
matter of law and that there is no evidence that
Apache suffered damages as the result of any alleged
breach. Apache contends the evidence supports
finding that W&T breached the JOA, and as a result,
Apache suffered damages in the amount awarded by
the jury in response to Question 2.
The Court previously held that the JOA was
ambiguous as to the relationship between §§ 6.2 and
18.4.3 That ruling on the construction of the JOA will
not be revisited. Therefore, the Court turns to
whether there is sufficient evidence to support the
jury’s finding on Question 3, which was that § 6.2 did
not require Apache to receive an Approval For
Expenditure (“AFE”) when plugging and abandoning
the well was required by § 18.4. At trial, W&T’s
witnesses gave testimony that a reasonable jury
could have found indicated that the parties’ intent
was that § 6.2 did not require a signed AFE under
the circumstances of this case. 4 This evidence is
sufficient to support the jury’s finding. 5 Nor was
Apache required to show § 18.4 was triggered by the
government requiring a particular type of vessel be
used to plug and abandon the wells; instead, Apache
only needed to show the plugging and abandoning of
the wells was required in order to trigger § 18.4. The
3

Order, Document No. 76.

4

See, e.g., Trial Transcript, Document No. 107 at 58–59
(testimony of David Bump); Trial Transcript, Document No.
109 at 27–29 (testimony of Thomas Murphy).
5

The jury’s finding that an AFE was not required under § 6.2
when the well must be plugged and abandoned pursuant to
§ 18.4 also disposes of W&T’s argument that Louisiana Civil
Code article 1996 precludes W&T’s liability here.

53a
provisions that would be implicated by the type of
vessel used are §§ 5.1 and 5.2, and there is sufficient
evidence to show the vessels utilized here were
reasonably necessary expenditures. 6 The damages
awarded for the jury’s finding that W&T breached its
payment obligations under the JOA is also
sufficiently supported by the evidence, as the amount
of damages is exactly 49% of the plugging and
abandoning costs after factoring in W&T’s partial
payment. Accordingly, the Court denies W&T’s Rule
50(b) motion as to whether W&T breached the JOA
as a matter of law.
2. Whether W&T Established Its Affirmative
Defenses as a Matter of Law
a. Prior Material Breach, Justification, and Excuse
W&T contends it established the affirmative
defenses of prior material breach, justification, and
excuse as a matter of law. Apache contends that
W&T did not establish these defenses because the
jury found that Apache complied with its contractual
obligations.
Under Louisiana law, a party is excused from
complying with its contractual obligations if another
party to the contract commits a “substantial breach.”
LAD Servs. Of La., L.L.C. v. Superior Derrick Serv.,
L.L.C., 167 So.3d 746, 755-56 (La. Ct. App. 2014).
6

See Apache’s Response to W&T’s Renewed Motion for
Judgment as a Matter of Law and Motion to Alter or Amend the
Judgment, Document No. 149 at 6–7 (summarizing the
evidence supporting the jury’s finding). The Court has reviewed
the cited evidence and concurs that it supports the jury’s
finding.

54a
Here, as to Question 1, the jury was instructed it was
only to find W&T had an obligation to pay the costs if
it found Apache complied with the terms of the
contract and that the contract must be performed in
good faith. The jury also found, as to Question 3, that
Apache was not required to obtain an AFE pursuant
to § 6.2 in order to proceed with a plugging and
abandonment operation required by § 18.4.
Accordingly, the Court denies the motion for
judgment as a matter of law, as the jury found there
was no substantial breach that would have triggered
the affirmative defenses of prior material breach,
justification, and excuse.
b. Failure to Mitigate
W&T contends it established the affirmative
defense of failure to mitigate. Apache contends W&T
withdrew the affirmative defense in the Joint
Pretrial Order and presented no evidence on the
defense at trial. In the Joint Pretrial Order, W&T
agreed that mitigation of damages did not apply and
withdrew the affirmative defense.7 Accordingly, the
Court denies the motion for judgment as a matter of
law because the failure to mitigate defense was
abandoned prior to trial.
c. Bad Faith
W&T contends the jury’s finding on Question 4 that
Apache acted in bad faith should be given effect.
Apache contends W&T is mostly reiterating
arguments the Court rejected in issuance of the final
judgment and that a finding of bad faith is not
7

Joint Pretrial Order, Document No. 53 at 14, ¶ 8(d).

55a
necessarily inclusive of a finding of “designed
breach.”
The Court will not revisit its legal findings from its
Final Judgment as to Question 4. 8 Therefore, the
Court only addresses W&T’s contention that a
finding of bad faith necessarily includes a finding of
“designed breach” under Louisiana law. In support of
this contention, W&T cites N-Y Associates, Inc. v.
Board of Commissioners of Orleans Parish Levee
District, 926 So. 2d at 20 (La. App. 2006). N-Y
Associates held that “[b]ad faith is not the mere
breach of faith in not complying with a contract but a
designed breach of it from some motive of interest or
ill will.” Id. at 24. However, that holding was in the
context of determining the scope of Louisiana Civil
Code article 1983’s requirement that contracts be
performed in good faith in the context of terminating
an at-will employee. See id. (noting the parties
agreed there was a right to terminate the contract at
will and “the question presented in this case is
whether or not that right was exercised in good faith
as required by the Civil Code”). N-Y Associates is an
intermediate appellate court decision that does not
interpret Article 2003. Lamar Contractors, Inc. v.
Kacco, Inc., 189 So. 3d 394 (La. 2016), is an on-point
Louisiana Supreme Court decision interpreting
Article 2003’s meaning. As a federal court sitting in
diversity, assuming without deciding that there was
any inconsistency in the decisions and even under
Louisiana’s civil law tradition, Lamar would still
control. Accordingly, the Court denies W&T’s
renewed motion for judgment as a matter of law that
8

Final Judgment, Document No. at 3–10.

56a
Apache is barred from any recovery given the jury’s
finding on Question 4 that there was bad faith.
3. Whether Apache’s Damages Should Be Reduced
by the Offset Finding
W&T contends Louisiana law recognizes the
doctrine of offset in contract cases and the Court
should give effect to the jury’s answer to Question 5
and reduce Apache’s award of damages by that
amount. Apache contends that W&T’s cited grounds
of mitigation, compensation, unjust enrichment, and
“actual damages” are either waived or not available
under Louisiana law. The Court previously ruled
that Questions 2 and 5 were not linked in the jury
instructions, which precludes W&T’s contention the
questions should be read together to determine the
actual damage to Apache. The Court will not revisit
that ruling, as W&T has not met its burden on a
Rule 50(b) motion. As to the availability of mitigation
under Article 2002, the Court addressed that ground
above and here in the offset context finds that W&T
waived that as a potential ground supporting the
offset finding when it withdrew the affirmative
defense in the Joint Pretrial Order. Nor does
compensation or unjust enrichment support the
jury’s finding, as W&T has previously admitted
neither of those doctrines could be the basis of the
jury’s finding, as that was not the nature of the
evidence presented to the jury. 9 Accordingly, the
9

See W&T Offshore, Inc.’s Response to Apache’s Motion for
Entry of Final Judgment, Document No. 130 at 24, 26 (stating
neither offset under Article 1893 or unjust enrichment under
Article 2298 were the “legal basis for securing the jury’s
finding,” and that the jury was not instructed on the traditional

57a
Court denies W&T’s renewed motion for judgment as
a matter of law that the Court apply the jury’s offset
finding in Question 5 because all cited grounds to do
so are either waived or unavailable under Louisiana
law in the context of this case.
B. W&T’s Motion for New Trial or Remittitur
1. The Jury’s Findings on Questions 1-3
W&T contends the jury’s responses to Questions 13 were against the clear weight of the evidence.
Apache contends that W&T fails to identify the trial
evidence that supports its contentions and that the
evidence fully supports the jury’s findings. Above the
Court denied W&T’s Rule 50(b) motions as to the
jury’s findings on Questions 1-3. The Court reviewed
the trial evidence cited by both W&T and Apache
and determined there was substantial evidence
supporting the jury’s finding on all three questions.
Here, while W&T generally discusses the evidence
presented on those questions, it does not cite or
otherwise direct the Court to the evidence that
supports its burden to show the verdict was against
the clear weight of the evidence. Moreover, even if
W&T had done so, recalling the evidence presented
at trial and after reviewing the parties’ submissions,
the Court finds that the jury’s verdict on Questions
1-3 were not against the clear weight of the evidence.
Specifically, the Court finds the damages awarded on
Question 2 were not excessive because it is the exact
portion of the remaining plugging and abandoning
costs for which W&T was contractually responsible
doctrine of setoff because that was “not the nature of the
evidence”).

58a
for after its prior partial payment. Accordingly, the
Court denies W&T’s motion for a new trial or
remittitur because Questions 1-3 were not answered
contrary to the clear weight of the evidence nor were
the damages excessive.
2. The Propriety of the Court’s Jury Instruction
W&T contends the Court failed to submit a
question on prior breach by Apache that prevented
the jury from considering all relevant factors. Apache
contends the jury fairly considered and rejected any
prior breach contentions. The jury was instructed on
prior breach on Question 1, because in order to find
for Apache, the jury was instructed it must first find
Apache acted in good faith and complied with §§ 5.1
and 5.2 of the contract. Further, the Court submitted
Question 3, which might also support a prior breach
finding, and the jury found that Apache complied
with the contractual terms. Additionally, at the jury
charge conference, W&T argued to the Court that
Question 4 on bad faith had “nothing to do with any
kind of prior breach of the contract.”10 Accordingly,
the Court denies W&T’s motion for a new trial
because the issue of prior breach was either
submitted to the jury or waived by W&T’s
arguments.
3. Andrew Derman’s Expert Witness Testimony
W&T contends the Court’s exclusion of its expert
witness, Andrew Derman, supports granting a new
trial because his testimony was necessary to explain
to the jury how the various contractual provisions
10

Trial Transcript, Document No. 109 at 147: 10–11.

59a
worked together. Apache contends W&T withdrew
the relevant portions of Derman’s testimony, which
waived and also failed to preserve any error on the
issue. The Court agrees that, by withdrawing those
portions of Derman’s testimony before the Court had
an opportunity to rule on the admissibility of the
opinions on how the various contract provisions
worked together, W&T waived and failed to preserve
any error. 11 Accordingly, the Court denies W&T’s
motion for a new trial because W&T either withdrew
the portions of the testimony at issue or those
portions would have invaded the province of the
Court to interpret the contract.
IV. CONCLUSION
Accordingly, the Court hereby
ORDERS that W&T Offshore, Inc.’s Motion for
New Trial or Remittitur (Document No. 146) is
DENIED. The Court further
ORDERS that W&T Offshore, Inc.’s Renewed
Motion for Judgment as a Matter of Law and Motion
to Alter or Amend the Judgment (Document No. 147)
is DENIED.

11

The Court also notes that the portions of Derman’s
testimony that W&T cites as grounds supporting a new trial
involve opinions about the legal interpretation of the contract,
which is the province of the Court.

60a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_________
No. 17-20599
_________
APACHE DEEPWATER, L.L.C.,
Plaintiff-Appellee,
v.
W&T OFFSHORE, INCORPORATED,
Defendant-Appellant.
_________
Filed: August 13, 2019
_________
Appeal from the United States District Court
for the Southern District of Texas
_________
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion July 16, 2019, 5 Cir.,
F.3d
)
_________

,

Before HIGGINBOTHAM, GRAVES, and WILLETT,
Circuit Judges.
_________

61a
PER CURIAM:
() The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the court
be polled on Rehearing En Banc, (FED. R. APP. P. and
5TH CIR. R. 35) the Petition for Rehearing En Banc is
also DENIED.
( ) The Petition for Rehearing is DENIED and
the court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R. APP.
P. and 5TH CIR. R. 35) the Petition for Rehearing En
Banc is also DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this cause
en banc, and a majority of the judges in active
service and not disqualified not having voted in
favor, Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Patrick E. Higginbotham
UNITED STATES CIRCUIT JUDGE

